<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:34 p.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Murkowski, and Feinstein.

                     NUCLEAR REGULATORY COMMISSION

STATEMENT OF HON. STEPHEN G. BURNS, CHAIRMAN
ACCOMPANIED BY:
        HON. KRISTINE SVINICKI, COMMISSIONER
        HON. WILLIAM OSTENDORFF, COMMISSIONER
        HON. JEFF BARAN, COMMISSIONER


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development please come to order.
    Today's hearing will review the President's fiscal year 
2017 budget request for the Nuclear Regulatory Commission.
    This is our first budget hearing this year. We expect to 
have three more budget hearings in the coming weeks. Senator 
Feinstein and I will each have an opening statement, and let 
me--it gives me an opportunity to say again what a delight it 
is to serve with her, to serve with somebody who has such good, 
strong knowledge of the subject, but also who, as a former 
mayor of a big city, knows how to make a decision. So it's nice 
to work with her in an effective and bipartisan way. And we 
find areas where we can put our heads together and come to an 
agreement and get a result, which makes service in the Senate 
much more satisfying to me. So I thank her for the way she does 
things.
    I will then recognize each Senator for up to 5 minutes 
after we have our opening statement for an opening statement, 
alternating between the majority and minority in the order in 
which they arrive, and will then turn to Chairman Burns to 
present testimony on behalf of the Commission. I will then 
recognize the Senators for 5 minutes of questions each, 
alternating from side to side.
    Our witnesses today include Stephen Burns, chairman of the 
Nuclear Regulatory Commission.
    Welcome, Mr. Chairman.
    Commissioner Kristine Svinicki, welcome. Good to see you 
again.
    Commissioner William Ostendorff. This will be the last 
hearing for Commissioner Ostendorff because he has announced he 
will be leaving the Commission at the end of his term in June, 
and returning to teach at the U.S. Naval Academy. He has been a 
strong and effective member of the Commission, and we thank him 
for that and wish him well in his new role.
    Commissioner Jeff Baran. Welcome to you, Jeff.
    As I said, we are here to review the proposed 2017 budget 
request for the Commission, which is the independent Federal 
agency responsible for regulating the safety of our Nation's 
commercial nuclear power plants and other nuclear materials.
    The budget request is $970.2 million. That's a decrease of 
$19.8 million from fiscal year 2016. The decrease is, in my 
opinion, a positive step toward making the Commission's budget 
reflect its actual workload.
    I also thank the chairman and the Commission for working 
together to identify more ways to reduce spending and reduce 
the NRC (Nuclear Regulatory Commission) funding needs for the 
coming year. And long as I talk about it, I thank you for 
working together because there was a time on the Commission 
when that wasn't going on, and for the last few years, it's 
been obvious to me that there is a collegial atmosphere there, 
and that obviously makes for a better functioning entity.
    We want to work closely with the Commission to make sure 
our bill reflects the savings, making the best use of taxpayer 
dollars. However, we want to make sure we continue to invest in 
nuclear power, which provides more than 60 percent of our 
country's carbon-free electricity.
    At a time when the President and many in the country see 
climate change as a major issue, it's difficult for me to see 
why we should not make nuclear power a primary solution, or one 
of the primary solutions, to dealing with that problem because 
of our expertise at it and because of the amount of carbon-free 
electricity it produces.
    Safely extending our existing reactors, licensing new 
reactors, including small reactors, solving the nuclear waste 
stalemate, are all important to the future of the industry--of 
nuclear energy. And I will focus my question on four main 
areas: solving the nuclear waste stalemate is something Senator 
Feinstein and I are dedicated to; safely extending licenses for 
existing reactors, which seems to me to be the logical way, at 
least for the next 20 years or so, to produce the largest 
amount of carbon-free electricity in the country; licensing new 
reactors; and making sure that the Commission is operating 
efficiently. Let me take those one by one.
    To be sure that we have a strong future for nuclear energy, 
we must solve the 25-year-old stalemate about what to do about 
waste from the reactors. Last year, Senator Feinstein and 
Senators Murkowski, Cantwell, and I reintroduced bipartisan 
legislation to create temporary and permanent facilities to 
store and dispose of our nuclear fuel. Our bill was consistent 
with the recommendations of the President's Blue Ribbon 
Commission on America's Nuclear Future.
    Senator Feinstein and I, with the support of leaders of the 
authorizing committee, plan to include in the Energy and Water 
bill we're drafting this year, a pilot program for nuclear 
waste storage and language that allows the Secretary of Energy 
to contract with private storage facilities, as we have in the 
past. These new storage facilities and repositories would not 
take the place of Yucca Mountain in my opinion--we have more 
than enough waste to fill Yucca Mountain to its legal 
capacity--but, rather, would complement it.
    I strongly believe that Yucca Mountain can and should be 
part of the solution. Federal law designates Yucca Mountain as 
the Nation's repository for nuclear fuel. The Commission's own 
scientists have told us that we can safely store nuclear waste 
there for up to 1 million years. But regardless of where we 
build permanent repositories, we still need facilities where we 
can consolidate all of the used fuel that is currently located 
at more than 75 sites around the country. The Blue Ribbon 
Commission concluded, ``That it would be prudent to pursue the 
development of consolidated storage capability without further 
delay,'' and Senator Feinstein and I agree with that 
recommendation.
    Over the last 4 years, we have heard from communities and 
States who are interested in hosting a consolidated storage 
site. I support moving forward with a consolidated storage on 
as many tracks as we can at once, whether it's at a private 
facility or one built under our own pilot program. And it's 
important to make sure the Commission is ready to act 
expeditiously.
    I understand that at least one private company is planning 
to submit an application to the Commission later this year for 
a license to build and operate a consolidated storage facility, 
and there may be others. I want to make sure the Commission has 
all the resources it needs in fiscal year 2017 to complete a 
review of such applications.
    And I also want to be clear that, in my opinion, the 
Commission should continue licensing activities for Yucca 
Mountain. The Nuclear Waste Fund, which is money that utilities 
have collected from customers on their monthly bills from 1983 
until 2013, and paid to the Government to dispose of their used 
nuclear fuel, plus accrued interest, will have a balance of 
about $37.5 billion at the end of the year, and there are still 
several steps to go in the licensing process of Yucca Mountain.
    The Government has been prevented from collecting fees 
since 2013, when the Court of Appeals for the D.C. Circuit said 
the Federal Government should comply with the Nuclear Waste 
Policy Act as it's currently written--that is, open Yucca 
Mountain--or until Congress enacts an alternative nuclear waste 
management plan. Yet, for the sixth year, the Commission has 
not requested any funding to continue licensing activities for 
Yucca even though the Commission will run out of money later 
this year for that purpose, and there are still several more 
steps that need to be taken.
    Number two, safely extending licenses for existing 
reactors. Instead of building more windmills, which only 
produce 14 percent of our carbon-free electricity despite 25 
years of multibillion dollar subsidies, or solar farms, which 
produce 1 percent of our carbon-free electricity, the best way 
to make sure the United States has a reliable source of cheap, 
efficient, carbon-free electricity is to extend the licenses of 
the nuclear reactors that are today already operating and 
producing 60 percent of our carbon-free electricity. Most of 
our 100 reactors have already extended their operating licenses 
from 40 to 60 years. Some utilities are planning to begin the 
process to extend these licenses from 60 to 80 years.
    The Commission told the subcommittee in last year's hearing 
that it had already developed the framework to safely extend 
licenses beyond 60 years, and I want to make sure the 
Commission has the resources it needs to take any final--any 
additional steps prior to receiving those applications.
    Number three, licensing new reactors. In addition to the 
reactors we already have, the Commission needs to be ready to 
review applications for new reactors, especially including 
small modular reactors. I understand that NuScale may file an 
application for design certification of a small reactor with 
the Commission later this year. Last week, NuScale received a 
permit from the Department of Energy, which will allow the 
company to build a small modular reactor module within 10 years 
on the property of the Idaho National Laboratory and use the 
site for 99 years for its operation.
    This new reactor design has been supported by the 
Department of Energy's small modular reactor program, which 
this subcommittee has funded since 2012. The subcommittee has 
also provided the NRC with funding to prepare to receive 
applications for small modular reactors. I want to make sure 
the Commission is ready to review this new technology once it 
receives its application. I also understand the Commission has 
requested $5 million to look at advanced reactor designs, and I 
would like to understand more about your plans for those funds.
    And, finally, making sure that the Commission is running 
efficiently. One of the challenges is to make sure the agency 
is running efficiently and focusing on the right goals. That's 
part of management.
    In the 2000s, the Commission began planning to receive a 
large number of applications for new reactor licenses, and the 
Congress increased the Commission's funding from $470 million 
in fiscal year 2000 to a high of $1.043 billion in 2014, a 
doubling of funding. But most of these expected licenses were 
never actually submitted, which has left the Commission's 
workforce and budget out of balance with its actual workload.
    In June 2014, the Commission began an effort, known as 
Project Aim, to address this imbalance by looking at the work 
that would be needed over the next several years and then 
aligning its workforce and budget with that forecast. As a 
result of this effort, the Commission's budget has decreased. 
In fact, this year's budget request is about $74 million less 
than what the Commission received in 2014.
    Last year, we worked with the Commission to cut its budget 
request by about $30 million. I am pleased that this year's 
budget request continues in that direction. I understand the 
Commission's staff has identified an additional $32 million in 
savings that could be applied to this year's budget request. I 
want to make sure the bill that Senator Feinstein and I and the 
committee members will be drafting reflects these additional 
savings so taxpayer money is wisely and effectively spent.
    I look forward to working with the Commission as we begin 
putting together our Energy and Water Appropriations bills. My 
hope would be that our bill would be one of the first on the 
floor, and that Senator McConnell and Senator Reid can put it 
up there and we can begin an appropriations process of the kind 
the Senate should have, and that we haven't had for a while.
    And I will now recognize my distinguished Ranking Member, 
Senator Feinstein, for an opening statement.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    We're here today to review the President's fiscal year 2017 budget 
request for the Nuclear Regulatory Commission, the independent Federal 
agency responsible for regulating the safety of our Nation's commercial 
nuclear power plants and other nuclear materials.
    The budget request for the Nuclear Regulatory Commission is $970.2 
million dollars. This is a decrease of $19.8 million dollars from 
fiscal year 2016. This decrease from last year's appropriations bill is 
a positive step toward making the Commission's budget reflect its 
actual workload.
    I also appreciate the Commission's efforts to identify more ways to 
reduce spending and reduce the NRC's funding needs for the coming year. 
We want to work closely with the Commission to make sure the Energy and 
Water Appropriations bill we are drafting reflects those savings, 
making the best use of taxpayer dollars.
    However, we also want to make sure we continue to invest in nuclear 
power, which provides more than 60 percent of our country's carbon-free 
electricity. Safely extending licenses for our existing reactors, 
licensing new reactors, including small modular reactors, and solving 
the nuclear waste stalemate are all important to the future of nuclear 
energy.
    Today, I will focus my questions on four main areas:
    1)  Licensing facilities for used nuclear fuel and solving the 
        nuclear waste stalemate;
    2) Safely extending licenses for existing reactors;
    3) Licensing new reactors; and
    4) Making sure the Nuclear Regulatory Commission is operating 
        efficiently.
               licensing facilities for used nuclear fuel
    To ensure that nuclear power has a strong future in this country, 
we must solve the 25-year-old stalemate about what to do with used fuel 
from our nuclear reactors.
    Last year, Senators Feinstein, Murkowski, Cantwell, and I 
reintroduced bipartisan legislation, to create temporary and permanent 
facilities to store and dispose of our used nuclear fuel, consistent 
with the recommendations of the Blue Ribbon Commission on America's 
Nuclear Future.
    Senator Feinstein and I, with the support of the leaders of the 
authorizing committee, plan to include in the Energy and Water bill 
we're drafting this year, a pilot program for nuclear waste storage and 
language that allows the Secretary of Energy to contract with private 
storage facilities, as we have in the past. These new storage 
facilities and repositories would not take the place of Yucca 
Mountain--we have more than enough waste to fill Yucca Mountain to its 
legal capacity--but rather would complement it.
    I strongly believe that Yucca Mountain can and should be part of 
the solution. Federal law designates Yucca Mountain as the Nation's 
repository for used nuclear fuel, and the Commission's own scientists 
have told us that we can safely store nuclear waste there for up to 1 
million years.
    But regardless of where we build permanent repositories, we still 
need facilities where we can consolidate all of the used fuel that is 
currently located at more than 75 sites around the country. The Blue 
Ribbon Commission concluded that ``it would be prudent to pursue the 
development of consolidated storage capability without further delay,'' 
and Sen. Feinstein and I agree with that recommendation.
    Over the last 4 years, we have heard from communities and States 
who are interested in hosting a consolidated storage site. I support 
moving forward with consolidated storage on as many tracks as we can, 
whether it's at a private facility or one built under our pilot 
program, and it is important to make sure that the Commission is ready 
to act expeditiously.
    I understand that at least one private company is planning to 
submit an application to the Commission later this year for a license 
to build and operate a consolidated storage facility, and there may be 
others. I want to make sure that the Commission has all the resources 
it needs in fiscal year 2017 to complete a review of these 
applications. I also want to be clear that the Commission should 
continue licensing activities for Yucca Mountain.
    The Nuclear Waste Fund, which is money that utilities have 
collected from customers on their monthly bills from 1983 until 2013 
and paid to the government to dispose of their used nuclear fuel plus 
accrued interest, will have a balance of about $37.5 billion at the end 
of the year, and there are still several steps to go in the licensing 
process for Yucca Mountain.
    The government has been prevented from collecting fees since 2013, 
when the Court of Appeals for the D.C. Circuit Court said the Federal 
government should comply with the Nuclear Waste Policy Act as it is 
currently written--i.e. open Yucca Mountain--or until Congress enacts 
an alternative nuclear waste management plan.
    Yet for the sixth year, the Commission has not requested any 
funding to continue licensing activities for Yucca Mountain, even 
though the Commission will run out of money later this year for that 
purpose and there are still several more steps that need to be taken.
            safely extending licenses for existing reactors
    Instead of building more windmills, which only produce 14 percent 
of our carbon-free electricity, or solar farms, which only produce 1 
percent of our carbon-free electricity, the best way to make sure the 
United States has a reliable source of cheap, efficient, carbon-free 
electricity is to extend the licenses of the nuclear reactors that are 
already operating.
    Most of our 100 reactors have already extended their operating 
licenses from 40 to 60 years, and some utilities are planning to begin 
the process to extend these licenses from 60 to 80 years.
    The Commission told the Subcommittee in last year's hearing that it 
had already developed the framework to safely extend licenses beyond 60 
years, and I want to make sure that the Commission has the resources it 
needs to take any additional steps it needs prior to receiving those 
applications.
                         licensing new reactors
    In addition to the reactors we already have, the Commission also 
needs to be ready to review applications for new reactors, including 
small modular reactors.
    I understand that NuScale may file an application for design 
certification of a small modular reactor with the Commission later this 
year. Last week, NuScale received a permit from the Department of 
Energy, which will allow the company to build a small modular reactor 
module within 10 years on the property of Idaho National Laboratory and 
to use the site for 99 years for its operation.
    This new reactor design has been supported by the Department of 
Energy's small modular reactor program, which this subcommittee has 
funded since 2012. The subcommittee has also provided the NRC with 
funding to prepare to receive applications for small modular reactors. 
I want to make sure the Commission is ready to review this new 
technology once it receives an application.
    I also understand that the Commission has requested $5 million to 
look at advanced reactor designs, and I'd like to understand more about 
the Commission's plans for these funds.
  making sure the nuclear regulatory commission is running efficiently
    One of the challenges for the Nuclear Regulatory Commission is to 
make sure the agency is running effectively and focusing on the right 
goals.
    In the early 2000s, the Commission began planning to receive a 
large number of applications for new reactor licenses, and Congress 
increased the Commission's funding from $470 million in fiscal year 
2000 to a high of $1.043 billion in fiscal year 2014. But most of these 
expected licenses were never actually submitted, which has left the 
Commission's workforce and budget out of balance with its actual 
workload.
    In June 2014, the Commission began an effort, known as Project Aim, 
to address this imbalance by looking at the work that would be needed 
over the next several years and then aligning its workforce and budget 
with that forecast. As a result of the first step of this effort, the 
Commission's budget has decreased. In fact, this year's budget request 
is about $74 million dollars less than what the Commission received in 
2014.
    Last year, we worked with the Commission to cut its budget request 
by about $30 million dollars, and I'm pleased this year's budget 
request continues in the right direction. I understand that the 
Commission's staff has identified an additional $32 million in savings 
that could be applied to this year's budget request. I want to make 
sure the bill Sen. Feinstein and I are drafting this year reflects 
those additional savings so taxpayer money is used effectively.
    I look forward to working with the Commission as we begin putting 
together our Energy and Water Appropriations bill for fiscal year 2017, 
and also with my Ranking Member, Senator Feinstein, who I will now 
recognize for an opening statement.
    Senator Alexander. Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Well, thanks very much, Mr. Chairman. I 
think you have made a very erudite and important statement, and 
I tried to listen to it carefully. I have come to have great 
respect for your knowledge, your acumen, and your ability to 
sit down and work out a solution. So, unfortunately, we have 
tried with the House, and not been as successful as we might 
have been, but, you know, hope springs eternal----
    Senator Alexander. Right.
    Senator Feinstein [continuing]. And I would really hope 
that this year we could make some progress with respect to a 
nuclear waste policy. And I understand your priorities.
    And I guess what I ask you to do, and others to do, is 
understand that I was a young child when the bombs were leveled 
at Hiroshima and Nagasaki. And I was old enough to read, so I 
read every newspaper I could get and saw pictures that were 
etched in my consciousness for the rest of my life. So I became 
very much aware, and I tried to follow Chernobyl and people 
going back to Chernobyl even after all these decades and 
finding how hot the radiation is. I remember watching a 
television program on it when they went to where the uniforms 
were stored in a building from the first people onsite, Russian 
soldiers and others, that first went into Chernobyl. And I 
don't know how many of them lived, but the uniforms all these 
decades later--they had Geiger counters, and the Geiger 
counters just went ballistic. So they're all still very, very 
hot. And I think we have to really at times be brought back to 
the reality.
    I think a lot of my concern is because I'm on the Pacific, 
I'm a westerner, and I happen to believe that the Pacific Ocean 
is in fact a ring of fire for big earthquakes, and, therefore, 
seeing that waste is properly disposed of so that it can't be 
done or the spent fuel pools won't split, as they have in 
Fukushima, and the other problems that Fukushima has had have 
been solved.
    Since our last meeting--and I want to very much compliment 
Southern California Edison because they have--are in the 
process of decommissioning with the NRC their two big reactors. 
And I think as the Commission knows, and we know, they have 
maybe 4,000 elements in spent fuel pools that are just a few 
yards from the beach, and 6 million people live on the other 
side. I know what the problem was in the faulty steam 
generator, and I think they did the right thing by 
decommissioning those reactors, but there is still a lot to 
worry about.
    We have another utility company that is located, again, on 
the ocean. I've been there. And they have taken a lot of 
precautions, but there are earthquake fractures and faults that 
run not too far away. So all of that is an increasing concern 
for me. But the need for a nuclear waste policy, which you have 
so well described and which we together, as well as with the 
authorizers, have worked on for, what, 4 years now?
    Senator Alexander. Yes.
    Senator Feinstein. And we've gone through three chairs of 
the Energy Committee, and it's still sitting there, and it's 
sitting there because of a conflict with Yucca. And I'm really 
concerned about that because we cannot be stopped by Yucca from 
doing good public policy around nuclear. You pointed out that 
it's 60 percent of our clean power, and it's very cheap. Well, 
if we're moribund, if we're in stasis, and we can't do anything 
to see that we can fix the problems, it's a very difficult time 
that we're going to have.
    So I couldn't ask for anyone more reasonable, more 
informed. And I really hope that we can spend some time and try 
to see if we can't get these problems resolved. We've tried 
before, but we have to succeed. So that's the need for our 
nuclear waste policy, and as you pointed out, ensuring the 
safety of nuclear plants, particularly after Fukushima, and 
applying the regulations to aging plants.
    It's my understanding that spent nuclear fuel is piling up 
at reactor sites around the country, 74,000 metric tons of it 
to date. Approximately 130 million people live within 50 miles 
of a storage site for commercial or government-owned spent 
nuclear fuel and other high-level waste. I mentioned in 
California alone, they shut down San Onofre Nuclear Generating 
Station, stores the 4,000 highly radioactive spent fuel 
assemblies just yards from the ocean. Reactors are being given 
license extensions, even though we have no long-term plan to 
store the waste they produce. This is very hard for me.
    So I think NRC needs to play a key role in helping us solve 
that problem, notably by being ready to review license 
applications for spent fuel storage sites as we envision in our 
Appropriation bill. NRC will also need to ensure that storage 
and transportation equipment and the procedures for handling 
spent fuel are fully protective of human health and the 
environment.
    So what Senator Alexander and I have done, and Senators 
Murkowski and Cantwell, we hope we can push to get that Nuclear 
Waste Policy Act into law. But we're nearing the fifth 
anniversary of the Fukushima disaster, which showed us how 
nature can quickly overwhelm even the best designed safety 
systems.
    Diablo Canyon, as I mentioned, sits on two major faults, 
and it could be subject to some of the same risks as Fukushima. 
Some post-Fukushima analysis argued that the Japanese 
regulatory structure was too close to the nuclear industry it 
was regulating, which contributed to the disaster, and so we 
can't allow that to happen here. The NRC must be independent, 
tough-nosed, and puts reactor operations above all.
    Finally, the fleet of nuclear reactors in our country is 
aging. Of the 99 operating reactors, as you pointed out, Mr. 
Chairman, 81 have been granted license extensions to operate 
for 60 years; another 11 have applications pending before the 
Commission. In addition, NRC has implemented the subsequent 
license renewal program to license reactors out to 80 years, 
and expects its first application in 2019.
    To me, this gives me pause, and I think it should give us 
all pause. As these plants age, and the stresses of operations 
and exposure to radioactivity take their toll, I hope that the 
NRC takes a rigorous, evidence-based approach to ensuring that 
all of the systems that comprise a nuclear power plant function 
are safe and secure. The consequences of failure, however small 
the chances, are really too grave to ignore.
    I understand the NRC has undertaken an effort called 
Project Aim--A-I-M--to make sure its budget and workforce are 
in line with the agency's future needs. The goal of the 
project, as I understand it, is to reduce funding and staffing 
levels by 10 percent by 2020. With its 2017 budget request, the 
NRC will have reduced staff by 280 employees, and funding by 
$74 million from 2014 levels. That's a very big decline. The 
nuclear industry has applauded this effort and called for 
deeper cuts.
    Now, I'm all for increasing Government efficiency, but I 
really grow concerned when an industry champions less oversight 
of its operations. So let me repeat: the American people need 
NRC to be a strong, independent, and capable regulator, and the 
nuclear industry should be held accountable to it for the 
safety of all reactors, both operating and retired.
    So I think we should sit down and talk about this. You 
know, I still--I went to San Onofre. I looked at the steam 
generator that was a Mitsubishi product. It was not like-for-
like, but believed to have alloys that were much improved. I 
was told about where the punctures were, and at that time, it 
was limited to one of the pair. Well, the other one began then 
to develop punctures. I'm not an expert, so I don't know. I 
know whether it's vibration or exactly what it was. And 
apparently the company felt it strongly enough to shut them 
both down and decommission them. Right in my State, that's a 
very major occurrence because this is a huge company, which I 
think they serve 16, 19 million people. It's enormous. And so 
they have had to find substitute power, which they have been 
able to do I think in a very solid way. But I am really worried 
about all this waste.
    And I'll say one other thing. As we have kind of looked 
into the WIPP (Waste Isolation Pilot Plant) facility in New 
Mexico, and we found that this most revered lab, Los Alamos, 
contracted with a contractor that put the wrong kitty litter in 
these drums, so they began to explode, and the facility is now 
out of--not out of business, but out of business temporarily 
for I think--how many years is it?
    Senator Alexander. It's been 2 years so far.
    Senator Feinstein. Two years so far, and I gather another 2 
at least.
    Senator Alexander. Well, it should be back this year.
    Senator Feinstein. It should be back this year. Well, 
that's good news. I did not know that. But to think that the 
most capable people in a nuclear-related lab contracted out and 
made a mistake. See, I can't forget that, and it does condition 
my thinking.
    Accidents do happen, and I think maintaining a robust NRC 
is our stop against incidents. So I'll be very--I don't want to 
see the NRC, in any way, shape, or form, be able to come in, in 
a year and say, ``Well, you cut us back, so we couldn't do this 
or that or the other thing.'' And I think we need to take a 
very sober appraisal of, A, what we believe they should be 
doing, the priority items, and see that they are well and 
professionally staffed to do that.
    So I hope we can make progress this year on our nuclear 
waste policy. I know that I am grateful to you because you have 
put the pilot in the bill every year, and I have kind of come 
down off my high horse on the advanced modular nuclear reactors 
a little bit.
    Senator Alexander. You did exactly that. Yes.
    Senator Feinstein. But the high horse is still there about 
more when you don't have a place for the waste.
    Senator Alexander. Yes.
    Senator Feinstein. So it's a great treat to work with you, 
Mr. Chairman. Thank you very much.
    Senator Alexander. Thank you, Senator Feinstein. We 
certainly don't want you back on your high horse. That would 
not be good, so we'll redouble our efforts.
    Well, that's a very compelling statement, and I thank you 
for it. And I think--let me suggest that we each take about 10 
minutes with our questions. We're the only two here--and if the 
other Senators come, why, we'll let them--we'll cut it back to 
five when they get here. But that will give us a chance to have 
more of a conversation.
    Let me start--oh, that's right. I forgot. The next thing is 
for Chairman Burns to give his testimony, and then we will ask 
our questions, and maybe by that time there will be other 
Senators.
    So, Mr. Chairman, welcome.

               SUMMARY STATEMENT OF HON. STEPHEN G. BURNS

    Mr. Burns. Thank you, Chairman Alexander and Ranking Member 
Feinstein. We appreciate the opportunity to appear before you 
to discuss our budget request for fiscal year 2017.
    As you know, and you said, the NRC is an independent agency 
established to license and regulate and oversee the civilian 
use of radioactive material and facilities in the United 
States. And the resources we're asking for in fiscal year 2017 
will allow us to continue to uphold our important safety and 
security mission.
    The proposed budget is $970.2 million and 3,462 full-time 
equivalent staff, which represents a decrease of $20 million 
and about 90 full-time equivalents from the fiscal year 2016 
enacted budget. In addition, there is a provision for about 
$12.1 million for the budget for our inspector general.
    For further context, our request is $74 million and 280 
FTEs less than our fiscal year 2014 enacted budget. And the 
request reflects our continued focus on our mission, our 
important safety and security mission, while it also achieves 
some resource savings and improves our efficiency. As we 
continue to work through the Project Aim initiative, we 
anticipate additional savings.
    We are required to recover, by law, approximately 90 
percent of our budget through fees, and, accordingly, about 
$861.2 million of the fiscal year 2017 budget request would be 
recovered from NRC licensees, resulting in a net appropriation 
of $121.1 million.
    Let me highlight some of the work we will achieve. We will 
continue our licensing and oversight activities for 100 
operating nuclear power reactors, and 31 research and test 
reactors. The NRC expects to continue reviewing three new 
reactor combined license applications, and, additionally, the 
NRC will continue the inspections of four nuclear--new nuclear 
units under construction in Georgia and South Carolina, and 
will also continue our vendor inspection program.
    We expect to review one small modular reactor design 
certification, that's the NuScale design that was mentioned 
earlier, and we will review three applications for medical 
isotope facilities.
    The budget request provides funding for licensing reviews 
and oversight activities at reactors undergoing 
decommissioning, as well as continued oversight over waste and 
spent fuel storage facilities. We expect to review one 
application for a spent fuel storage facility.
    We'll continue to license and oversee the safe and secure 
use of radioactive materials. In fiscal year 2017, the NRC will 
complete about 2,000 materials licensing actions and about 900 
routine health and safety inspections in this area.
    Of note, our budget request includes $5 million in non-fee 
billable activities to develop regulatory infrastructure to 
effectively review advanced reactor applications.
    As we continue to work through the Project Aim initiative, 
we are confident the agency is on the right track. We have 
already identified savings through a comprehensive evaluation 
that involves staff and stakeholder input. Still, we remain 
mindful of the importance of our highly skilled technical staff 
in carrying out our mission, and while our size may change to 
reflect efficiency gains, the need for the service we provide 
to the American people remains unchanged.
    I want to highlight one other area where we are focusing on 
improvement. We're cognizant of the committee's concerns 
regarding early Commission involvement in rulemaking, and we 
have approved a new approach to do so, to enhance the 
involvement of the Commission, and we'll provide requested 
information to the committee next month, as provided in the 
committee's report on the fiscal year 2016 appropriation.
    On behalf of the Commission, I thank you for the 
opportunity to appear before you today, and I know you share 
our dedication to the vital mission of the NRC. And we'd be 
pleased to answer your questions.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Stephen G. Burns
    Good afternoon, Chairman Alexander, Ranking Member Feinstein, and 
distinguished Members of the Subcommittee. My colleagues and I 
appreciate the opportunity to appear before you today to discuss the U. 
S. Nuclear Regulatory Commission's (NRC) fiscal year 2017 budget 
request.
    As you know, the NRC is an independent agency established to 
license and regulate the civilian use of radioactive materials in the 
United States to ensure adequate protection of public health and 
safety, promote the common defense and security, and protect the 
environment. The resources we are requesting for fiscal year 2017 will 
allow the NRC to continue to uphold our important safety and security 
mission.
    We'd like to underscore that this budget request reflects a 
substantial reduction from the 2016 enacted budget. Project Aim is 
delivering on the promise to achieve efficiencies in both corporate and 
programmatic areas. The NRC has taken a hard look at the proposed 
budget, and is proposing reductions in both full-time equivalents (FTE) 
and contract support dollars that represent real savings. As we 
continue our work through the Project Aim initiative, we anticipate 
additional savings and efficiencies to come.
    To put this in context, the fiscal year 2017 budget request 
reflects a decrease of $73.7 million and 279.7 full-time equivalent 
employees from the fiscal year 2014 enacted budget. We believe this 
fiscal year 2017 budget request reflects our continuing focus on our 
important mission while achieving resource savings and improving the 
agency's efficiency and effectiveness.
    In fiscal year 2017, the NRC will continue licensing and oversight 
activities for 100 operating commercial nuclear power reactors, 
including the Watts Bar Unit 2 nuclear power station slated to begin 
commercial operation later in calendar year 2016, and 31 research and 
test reactors. The resources we have requested for fiscal year 2017 
also support ongoing work associated with implementing lessons learned 
from the Fukushima Dai-ichi Nuclear Power Plant accident in Japan. 
While we expect the bulk of the most safety significant enhancements to 
be completed in calendar year 2016 and to bring to closure our work on 
most of the longer-term ``Tier 2 and 3'' issues, resources requested 
for fiscal year 2017 support the continued implementation of the ``Tier 
1'' enhancements, including seismic and flooding hazard reevaluations, 
spent fuel pool instrumentation and mitigation of beyond design basis 
events.
    During fiscal year 2017, the NRC expects to continue reviewing 
three new reactor combined license applications. Additionally, the NRC 
will continue to conduct inspections of four new reactor units under 
construction--Vogtle Electric Generating Plant, Units 3 and 4, and 
Virgil C. Summer Nuclear Station, Units 2 and 3--and will continue to 
carry out its vendor inspection program for both new and operating 
reactors. The NRC also expects to receive and begin review of one small 
modular reactor design certification application from NuScale.
    Further, the NRC plans to review three applications for medical 
isotope production facilities, including reviewing an operating license 
for one facility and conducting environmental and safety reviews of 
construction permits at two others.
    The fiscal year 2017 budget request includes $5 million in non-fee 
billable activities related to developing the regulatory infrastructure 
for advanced nuclear reactor technologies. This funding would prepare 
the NRC to undertake effective and efficient licensing reviews of 
advanced reactor technologies consistent with the maturity and 
development pace of the technologies. The intended activities to be 
initiated in fiscal year 2017 would fall into three categories: 
licensing infrastructure, technical preparation, and outreach.
    Additionally, the fiscal year 2017 budget request provides funding 
for licensing reviews and oversight activities at power reactors 
undergoing decommissioning, including Kewaunee Power Station, San 
Onofre Nuclear Generating Station Units 2 and 3, Crystal River 3 
Nuclear Power Plant and Vermont Yankee Nuclear Power Plant.
    The fiscal year 2017 budget request also ensures the NRC can 
continue to license and oversee the safe and secure use of radioactive 
materials used for medical, academic, industrial and research purposes. 
The NRC and Agreement states oversee approximately 21,000 specific 
materials licensees. In fiscal year 2017, the NRC will complete 
approximately 2,000 materials licensing actions and approximately 900 
routine health and safety inspections, as well as reactive and follow-
up inspections.
    In fiscal year 2017, the NRC will continue its oversight over 
nuclear waste and spent fuel storage facilities, certify storage and 
transportation containers and respond to events involving our 
licensees. The NRC expects to review one application for an interim 
consolidated storage facility.
    In fiscal year 2017, the NRC's research program will continue to 
support the NRC's regulatory activities by evaluating and resolving 
safety issues for NRC-regulated nuclear power plants, other nuclear 
facilities and materials users that the agency regulates. The NRC will 
further enhance its regulatory programs through coordination and 
cooperation with other Federal agencies, States, Tribes, and 
international organizations and foreign governments. The NRC will 
continue to support international conventions on safety and treaty 
compliance, and support a wide range of activities to help foreign 
regulatory counterparts develop or enhance their programs and their 
controls over radioactive sources.
                  the changing regulatory environment
    Before I get into the specifics of the NRC's fiscal year 2017 
budget request, I would like to talk about our Project Aim effort to 
find efficiencies, use resources wisely, and streamline processes and 
regulatory decisionmaking while continuing to meet our critically 
important safety and security mission.
    Since 2001, the agency grew significantly to enhance its security 
and incident response regulatory structure, and to prepare for the 
projected growth in nuclear power in the United States. That forecast 
in growth has been adjusted downward in response to changes in the 
nuclear industry. As is appropriate, the NRC is being scrutinized by 
its stakeholders for its response to these changes and the resulting 
use of resources. The agency can and should maintain focus on our 
mission while we take a hard look at our workload and how to achieve 
efficiencies.
    We are confident that the agency is on the right track. Over $9 
million in savings has already been identified through a comprehensive 
evaluation that involved staff at all levels of the agency, as well as 
stakeholder input. The savings, particularly in the areas of 
rulemaking, travel and corporate support are significant. However, 
through Project Aim, we are seeking additional efficiencies. Corporate 
efficiencies include centralizing financial management and human 
capital staff, and reducing information technology security costs. The 
NRC's safety and security mission remains paramount as actions are 
taken to re-baseline the agency.
    The Project Aim Steering Committee has delivered to the Commission 
a rebaselining paper that outlines additional proposed efficiencies. 
While still under Commission review, the now-public paper reflects more 
than 140 activities that could be eliminated or reduced over the next 6 
months, for a savings of about $41.1 million in fiscal year 2017. Total 
potential reductions identified over 18 months is $49.5 million. The 
staff will later submit to the Commission a paper outlining additional 
areas for longer-term efficiencies and projected workload changes 
through fiscal year 2020.
    However, we cannot emphasize strongly enough that the NRC's ability 
to ensure adequate protection of public health and safety and the 
common defense and security will always be our main concern. While our 
size may change to reflect workload reductions and efficiency gains, 
the need for the great majority of the services we provide the American 
people remains unchanged.
    As we proceed, the agency remains mindful of the importance of its 
highly skilled technical staff and the need to maintain our expertise. 
We must keep a focus on knowledge management as some senior staff 
retire and new experts take their place. We must not forget that the 
success of the agency is due, in no small part, to the quality and 
dedication of the agency's people. Remaining one of the best places to 
work in the Federal Government is important to our ability to continue 
to recruit the most talented candidates, and retain our skilled and 
knowledgeable technical experts.
    I want to highlight one other area where the Commission is focusing 
on improvement: the Commission's involvement in the rulemaking process. 
Over the last several years, the Commission has revised its rulemaking 
processes to improve its understanding of, and, where possible, reduce 
the cumulative effects of regulations. These new processes include 
increased opportunities for stakeholder interactions and feedback, 
publishing draft supporting guidance concurrent with proposed rules, 
requesting specific comment on the cumulative effects of regulations in 
proposed rules, and developing better-informed implementation 
timeframes.
    We are cognizant of the Committee's concerns as expressed in the 
fiscal year 2016 Joint Explanatory Statement regarding the timing of 
Commission involvement. The Commission directed the NRC staff last 
September to propose a plan for increasing the Commission's involvement 
in the rulemaking process before significant resources are expended. 
The Commission has just issued its direction on the proposed plan, 
which presented eight recommendations to better define and enhance the 
Commission's role in the early stages of rulemaking. We believe our 
approved approach meets the intent expressed in the report language and 
we will provide the requested information to the Committee in March 
2016.
                    fiscal year 2017 budget request
    The NRC's proposed fiscal year 2017 budget is $970.2 million and 
3,462 FTE, excluding the Office of the Inspector General (OIG). The 
proposal represents a net decrease of $19.8 million from the fiscal 
year 2016 enacted budget, as well as a decrease of 90 FTE.
    The OIG's component of the fiscal year 2017 budget is $12.1 
million, of which $11.2 million is for auditing and investigation 
activities for NRC programs and $1 million is for auditing and 
investigation activities of the Defense Nuclear Facilities Safety Board 
(DNFSB). These resources will allow the OIG to carry out its mission to 
independently and objectively conduct audits and investigations to 
ensure the efficiency and integrity of the NRC and DNFSB, to promote 
cost-effective management, and to prevent and detect fraud, waste, and 
abuse.
    Under the provisions of the Omnibus Budget Reconciliation Act of 
1990, as amended, the NRC fiscal year 2017 budget request provides for 
90 percent fee recovery, less the amounts appropriated for generic 
homeland security activities, waste incidental to reprocessing 
activities and DNFSB activities. Accordingly, $861.2 million of the 
fiscal year 2017 budget will be recovered from fees assessed to NRC 
licensees, resulting in a net appropriation of $121.1 million. This 
appropriation is an increase of $2.1 million compared with the fiscal 
year 2016 enacted budget due to the inclusion of $5 million in non-fee-
billable resources for advanced nuclear reactor technology.
    The NRC carries out its safety and security activities through two 
major programs: Nuclear Reactor Safety, which includes both Operating 
Reactors and New Reactors, and Nuclear Materials and Waste Safety, 
consisting of fuel facilities, nuclear materials users, decommissioning 
and low-level waste, and spent fuel storage and transportation. 
Compared to the fiscal year 2016 enacted budget, the NRC's Nuclear 
Reactor Safety Program decreased by $3 million and 61.9 FTE; the 
Nuclear Materials and Waste Safety Program, including Decommissioning 
and Low-Level Waste, decreased by $1.8 million and 28.1 FTE.
    I would now like to highlight portions of the fiscal year 2017 
budget request.
                         nuclear reactor safety
Operating Reactors
    The fiscal year 2017 budget request for the Operating Reactors 
Business Line is $587.5 million, a decrease of $1.7 million from the 
fiscal year 2016 enacted budget. This reflects declining or completed 
workload associated with, among other activities, implementation of the 
Fukushima lessons learned, license renewals and National Fire 
Protection Association 805 license amendment requests.
New Reactors
    The fiscal year 2017 budget request for new reactors is $169.9 
million, which represents a funding decrease of $1.4 million when 
compared with the fiscal year 2016 enacted budget. The decrease is a 
result of delays in application submittals, and project slowdowns or 
suspensions. The New Reactors Business Line is responsible for the 
regulatory activities associated with siting, licensing, and overseeing 
construction of new nuclear power reactors.
                   nuclear materials and waste safety
Fuel Facilities
    The fiscal year 2017 budget request for fuel facilities is $41.5 
million, which represents an overall funding decrease of $2.9 million 
when compared with the fiscal year 2016 enacted budget. The Fuel 
Facilities Business Line supports licensing, oversight, rulemaking, 
international activities, research, generic homeland security, and 
event response associated with the safe and secure operation of various 
operating and new fuel facilities such as conversion, enrichment, and 
fuel fabrication facilities, and nuclear fuel research and pilot 
facilities.
Nuclear Materials Users
    The fiscal year 2017 budget request for nuclear material users is 
$92.5 million, which represents a funding increase of $0.9 million when 
compared with the fiscal year 2016 enacted budget.
    The Nuclear Materials Users Business Line supports the safe and 
secure possession, processing, handling of nuclear materials in many 
diverse applications, along with associated activities related to 
licensing, oversight, rulemaking, international engagements, research, 
generic homeland security, event response, and State, Tribal, and 
Federal Program interfaces. This increase is due to the resumption of 
security rulemakings and to address an industry petition for 
rulemaking. These were delayed in fiscal year 2016.
Spent Fuel Storage and Transportation
    The fiscal year 2017 budget request for spent fuel storage and 
transportation is $37.2 million, which represents an overall funding 
increase of $1.1 million when compared with the fiscal year 2016 
enacted budget. The Spent Fuel Storage and Transportation Business Line 
supports licensing, oversight, rulemaking, international activities, 
research, and generic homeland security associated with the safe and 
secure storage and transportation of spent nuclear fuel and other 
radioactive materials. This increase is due to safety and environmental 
reviews of an interim consolidated storage facility and related safety 
analysis.
Decommissioning and Low-Level Waste
    The fiscal year 2017 budget request for decommissioning and low-
level waste is $41.6 million, which represents an overall funding 
decrease of $1 million when compared with the fiscal year 2016 enacted 
budget. The Decommissioning and Low-Level Waste Business Line supports 
licensing, oversight, rulemaking, international activities, and 
research associated with the safe and secure operation of uranium 
recovery facilities, removal of nuclear facilities from service and 
reduction of residual radioactivity to a level that permits termination 
of the NRC license, and disposition of low-level radioactive waste from 
all civilian sources. The Commission has directed staff to proceed with 
a decommissioning rulemaking that would establish clear requirements 
for decommissioning reactors. Comments from stakeholders are being 
collected through March 18 of this year with the bulk of the work on 
the regulatory basis and proposed rule completed by the end of fiscal 
year 2017.
                                closing
    As I said at the onset, this budget request represents a 
substantial reduction from the 2016 enacted budget. The President's 
Budget takes advantage of the Project Aim-identified efficiencies, and, 
as we continue our work, we anticipate additional savings and 
efficiencies to come.
    Chairman Alexander, Ranking Member Feinstein, and distinguished 
Members of the Subcommittee, this concludes my formal testimony on the 
NRC's fiscal year 2017 budget request. On behalf of the Commission, I 
thank you for the opportunity to appear before you. We look forward to 
working with you on the 2017 budget and going forward. I know you share 
our dedication to the vital mission of the NRC.
    I would be pleased to respond to any questions that you may have. 
Thank you.

    Senator Alexander. Thanks, Mr. Chairman.
    And we'll each take 10 minutes for questions, and then 
we'll go from there.

                CURRENT STATE OF THE POWER REACTOR FLEET

    Mr. Chairman, it sounded like you mentioned seven reactors. 
You're monitoring four and are considering three more 
applications. Is that right?
    Mr. Burns. We have the four----
    Senator Alexander. Tell me--tell me where they are.
    Mr. Burns. Okay. We have the two Vogtle plants in Georgia 
and the two Summer plants in South Carolina are under 
construction.
    Senator Alexander. Okay.
    Mr. Burns. In the last year, we have approved the combined 
license applications for the Fermi Unit 3 and the South Texas 
Unit 3 and 4 plants. Now, what the companies there have 
indicated----
    Senator Alexander. Is that two more?
    Mr. Burns. That's--well, actually, it would be three--
actually it would be three more plants.
    Senator Alexander. Okay.
    Mr. Burns. Now, what they've indicated they're going to do 
is in effect--they've gone through the process of receiving the 
license, but they're going to bank--if you will, bank the 
license until they determine probably in early 2020 or 
thereabout, whether they would proceed, you know, whether the 
conditions are right to proceed with construction of those 
plants.
    Senator Alexander. Yes. So----
    Mr. Burns. And we also have a couple other plants which we 
expect to see from I think Duke, I think it's the Lee and the 
Levy plant this year, which we would also be asked to act on a 
combined license for.
    Senator Alexander. Those are new.
    Mr. Burns. Those would be new sites, yes.
    Senator Alexander. So four under construction.
    Mr. Burns. Four under construction.
    Senator Alexander. Three new reactors in Texas that are in 
the application process.
    Mr. Burns. Well, two in Texas that received the combined 
license. They could proceed with construction today.
    Senator Alexander. Yes. And where's the third?
    Mr. Burns. In Fermi, which is in Michigan, near the 
Michigan-Indiana border.
    Senator Alexander. Yes. And then two more?
    Mr. Burns. Yes. It's--is it two or--it's two--it's two 
more. Under the Duke Power and the locations, I've----
    Senator Alexander. Yes. So that's four----
    Mr. Burns. In the southeast----
    Senator Alexander. That's four, three, and two.
    Mr. Burns. Yes.
    Senator Alexander. The way I'm hearing you, that's seven 
and nine.
    Mr. Burns. Yes. Yes. And then----
    Senator Alexander. They're potential new reactors.
    Mr. Burns. Yes, the--yes.
    Senator Alexander. In various stages of----
    Mr. Burns. Yes.
    Senator Alexander. Now, how many reactors--we have 100 
today, right? With the opening of Watts Bar, if you count Watts 
Bar.
    Mr. Burns. Correct.
    Senator Alexander. But how many are being decommissioned or 
closed?
    Mr. Burns. Well, there are announcements for two sites in 
the Northeast--the FitzPatrick plant in upstate New York, and 
the Pilgrim plant south of Boston--which Entergy has announced 
that it would be closing down. I think FitzPatrick in 2017, 
and----
    Senator Alexander. What about the California sites that we 
talked about?
    Mr. Burns. Well, San Onofre has already been closed. The 
other----
    Senator Alexander. So that's already in your----
    Mr. Burns. Yes. Yes.
    Senator Alexander. So you know of two sites that would be 
closed.
    Mr. Burns. In addition to sites that are already under 
decommissioning, such as the San Onofre site in Southern 
California.

                     SAFETY RECORD OF U.S. REACTORS

    Senator Alexander. Yes. So it's 100 potentially, plus 7, 
minus 2, potentially, that we know.
    Let me start this out by asking you a few questions about 
the safety record, because Senator Feinstein very properly 
brings this up. How many in the United States--we have 100 
reactors--how many deaths have there been in the history of our 
commercial nuclear program associated with reactor accidents, 
with the failures of the reactor?
    Mr. Burns. With--from a radiation-induced accident, none 
that I know of.
    Senator Alexander. Okay. Let me ask Mr. Ostendorff--
although I could ask you--how many deaths have there been 
associated with Navy reactors?
    Mr. Ostendorff. None.
    Senator Alexander. Three Mile Island was our most 
celebrated nuclear accident in the United States. That was in 
1978? No----
    Mr. Ostendorff. '79.
    Mr. Burns. Nine. Nine.
    Senator Alexander [continuing]. 1979. How many people were 
hurt at Three Mile Island?
    Mr. Burns. From radiation, none.
    Senator Alexander. None. And that's despite the fact that 
there has been monitoring probably still going on, maybe not, 
but there was monitoring at least for many years of individuals 
in that area to make sure that no one had radiation sickness as 
a result of the accident.
    So no, no let me go further than that. We have used fuel, 
which we would like, both of us, and Senator Murkowski is now 
here, chairman of our authorizing committee, we have used fuel 
on 75 sites or so around the country that we would like to 
begin to move to either a consolidated site, or I would like to 
move to Yucca Mountain. What is the Commission's view of the 
safety of the storage of the used fuel on those--at those 75 
sites?
    Mr. Burns. We believe it's safe. We monitor it. We, in 
some--we will license the fuel storage at those sites, and we 
monitor and inspect it. We also license and review the casks, 
and we believe it's safe, can be safely held there.
    Senator Alexander. Yes. Okay.
    Senator Feinstein, we have Senator Murkowski here now. I 
think what I'll do is stop my questions at 5 minutes and go to 
you for your questions, and then go to Senator Murkowski. Would 
that----
    Senator Murkowski. That is fine.
    Senator Alexander. We're glad you're here.
    So Senator Feinstein.

                       DIABLO CANYON POWER PLANT

    Senator Feinstein. Thanks, Mr. Chairman.
    As part of its response to Fukushima, the NRC has asked all 
nuclear plants for information regarding seismic and flooding 
hazards, as I understand it. And I think this analysis is of 
particular importance in Diablo Canyon, which sits on the 
California coast near a series of fault lines. For each fault 
line, I understand--and correct me if I'm wrong--the NRC will 
compare the newest evidence of potential ground movement 
against the design tolerances of the plant. Is that correct?
    Mr. Burns. Yes. Yes, that's my understanding. We have them, 
as we have plants across the United States, doing a seismic 
reevaluation. I believe the Diablo Canyon final report is due 
in about a year. In the meantime, we believe that the plant is 
safe to operate taking into account knowledge that's been 
developed regarding the faults and the new designs that we know 
of with respect to seismic activity.
    Senator Feinstein. Right. And if I understand this 
correctly, your staff has confirmed that the new seismic data 
is, quote, of sufficient quality and suitable, end quote, for 
conducting this final risk analysis. And then that report will 
be out in September of 2017. Is that correct?
    Mr. Burns. That's correct.
    Senator Feinstein. Okay. So can you talk a little bit--
because this is one reactor that's had a lot of public concern 
around it, as you know--why does it take so long to complete 
the risk analysis? And what makes you confident that there are 
no safety concerns in the interim?
    Mr. Burns. Well, Diablo Canyon, I think as you are well 
aware, since its original licensing, there has been a high 
degree of focus on seismic--the seismic profile, the seismic 
design basis for the plant, and as new knowledge is developed, 
as the science developed, that's fed into it. Why we're 
confident with respect to the safety of the plant, pending the 
evaluation, is because the parameters that have been used in 
licensing allow a very robust design, they envelop some of what 
we are seeing from the potential information from other fault 
lines or other material.
    Part of the reason it takes that long is to do the science 
well, and also, you know, the availability of top experts to 
conduct that work. Again, I want to assure you, from our 
standpoint, we believe that pending the outcome of those 
evaluations and what it may show, we think the plant is safe to 
operate.

                 SAN ONOFRE NUCLEAR GENERATING STATION

    Senator Feinstein. Got it. Thank you. I want to get in my 
time the second reactor site, which is the decommissioning at 
San Onofre. I understand they're moving ahead with expanding 
their dry fuel storage area, and their plans include 
demolishing the reactor buildings on an expedited timeframe, 
potentially concluding work in 2027. And I understand that you 
have issued all the necessary approvals, and if the State does 
the same, physical dismantlement could become--could begin next 
year. Is that correct?
    Mr. Burns. That's my understanding.
    Senator Feinstein. Okay. Can you confirm that the NRC will 
continue to inspect the site and oversee the decommissioning 
program to ensure safety?
    Mr. Burns. Yes. That's part of our normal program. It would 
be not only for San Onofre, but the other sites that are under 
decommissioning.
    Senator Feinstein. Okay. Now, what are the biggest risks in 
your view to completing the decommissioning process in a safe 
and timely manner?
    Mr. Burns. I think if I--Senator, one of the things I 
learned from a site visit to the Zion plant, which is north of 
Chicago undergoing decommissioning, it's not so much the 
biggest risk, but the biggest challenge and I think the biggest 
focus is sound planning, because you want to be able--you want 
to--when you're taking apart the facility, you want to do it in 
a way that minimizes occupational exposure of radiation to 
workers, but not only that, you also have to worry about making 
sure you're not getting overexposure to heavy metals and other 
types of chemicals that may have been used appropriately at the 
site. So my sense is it's sound planning.
    I met with the folks from San Onofre, as I think some of my 
colleagues are----
    Senator Feinstein. Good.
    Mr. Burns [continuing]. And, again, I think they have--my 
sense is that they have that understanding, that good planning 
as you go into the process for not only the dismantling, but 
the planning for the spent fuel storage pad and the dry 
storage, is underway. So I think keeping a good focus on that 
planning, from my standpoint, is the biggest challenge.
    Senator Feinstein. Let me ask you this, Does the NRC have 
contact with the CEO, who actually, you know, made the 
decision, and I think is a very constructive and cautious 
individual who wants to do the right thing? Do you keep in 
touch, or is it with the technical staff that you keep in 
touch?
    Mr. Burns. Well, sometimes I forget maybe the titles, but I 
met with the manager, actually I saw him yesterday at another 
conference, who is responsible for laying out the planning for 
it. So we do have interaction. I think they try to reach out to 
us to let us know where their plans are. So there's an 
engagement, I think, both at the management level within the 
company, as well as, importantly--obviously importantly--the 
technical level within the agency.
    Senator Feinstein. Well, the reason I ask is I know 
technical people and professional people are very good, but I 
think it's very important that the person of a big company who 
makes the decisions really keeps in contact, or you keep in 
contact with him, so that he gets firsthand information in the 
case anything goes a little out of the normal. And would you 
agree to do that?
    Mr. Burns. Certainly.
    Senator Feinstein. Thank you.
    Senator Alexander. Thank you, Senator Feinstein.
    We welcome Senator Murkowski, chairman of the Energy 
Committee.
    Senator Murkowski. Thank you. Appreciate the opportunity to 
be with you to discuss some of the nuclear issues, and again to 
thank you both for your leadership as we try to figure out some 
solutions when it comes to nuclear waste. I know we haven't 
picked up that baton yet in 2016, but I think the commitment 
still is there. Know that I certainly share that with you, that 
we're going to figure this out. So thank you for that.
    And thank you to our commissioners for the work that you 
do.
    And, Commissioner Ostendorff, I understand that you're 
going to be signing out of here at the end of this fiscal year, 
so thank you for your service.

                         SMALL MODULAR REACTORS

    I want to direct my questions this afternoon to small 
modular reactors and where we are, and just kind of have some 
sense of understanding, because what I'm hearing are just 
horror stories in terms of the length of time that this process 
is taking and the costs involved.
    So we understand that NRC is preparing to receive full 
license applications for SMRs. So the question is, How long do 
you expect that a full application review of an SMR would take? 
Have you identified some of the barriers that we clearly know 
are in place, either legislative or regulatory, so that we can 
have a more expedited and yet thorough review of these full SMR 
applications? And I throw that out to all of you here.
    Mr. Burns. I'll start off, and please--and joined by my 
colleagues.
    One of the things I want to make sure when we talk about 
small modular reactors is what we do expect to receive. We 
expect to receive an application from NuScale at the end of 
this year for a small modular reactor. It's a light-water 
reactor base. But I want to make sure I distinguish between 
small modular reactors we may receive in the next few years and 
the longer term look at advanced reactors, which are non-light-
water reactor designs, which are coming, and which we've been 
having a lot of engagement with the Department of Energy with 
some vendors on.
    Back to your question in terms of what we have before us. 
We've been interacting with NuScale to make sure we both 
understand each other before the application comes in and so 
that we're well prepared for it. Again, I expect we will 
receive it at the end of this year. My expectation is the 
design certification would take on the order of about 3 to 4 
years for the review of that application.
    Senator Murkowski. So it is correct--I'm told that they 
will--they expect to have spent--``they'' being NuScale--$1.1 
billion by the time construction begins on their first NuScale 
unit. That's a cost, I'm told, of about $268 billed per NRC 
man-hours given the review time that has been outlined.
    So in terms of cost to the agency to do all this, cost to 
the entity that's making the application, can't we build a 
better mousetrap here?
    Mr. Burns. Well--go ahead, Commissioner.
    Mr. Ostendorff. I just want to clarify one thing. The last 
2 weeks I've had a chance to speak at two conferences with the 
NuScale Chief Operating Officer Mike McGough. It was out at Oak 
Ridge National Laboratory the week before last, and last week I 
spoke at Platts. Mike McGough was at both of these sessions, 
and he is their primary face in Washington, D.C. And I want to 
separate out the regulatory cost from the total cost.
    Senator Murkowski. Okay.
    Mr. Ostendorff. I think the total cost you're talking 
about, Senator, is about the same number I've heard. That is 
not all regulatory cost. That is the cost to go and design, 
hire staff, and do test work to ensure there's a safe design 
that can be submitted. When I asked Mike McGough, ``What is 
your concern with the NRC and our regulatory hat as far as the 
cost?'' he says that that cost is a small proportion, or is a 
small portion, of their overall cost.
    Last June, June 2015, the NRC published a Federal Register 
Notice, 118 chapters, was called the ``Design Specific Review 
Standards'' that would be the guidebook that our staff would 
use to review that NuScale license application, which has not 
yet come in to the agency, but is expected in December of this 
year. And I asked Mike, ``How is that going? How is your 
company looking at this design specific review standard 
process?'' He told me he's satisfied with it.
    So I think there's a lot of numbers that get thrown around 
and so forth. I don't believe the $1.1 billion is anywhere 
close to regulatory costs, which is a lot, lot lower than that 
number.
    Senator Murkowski. So----
    Mr. Ostendorff. And we can provide feedback to you.
    Senator Murkowski. Well, and I think it would be helpful to 
have a handle on what real numbers are. But further to the 
point, I think there's a recognition that this is--this is 
lengthy, it's complicated, and it's expensive, and if there are 
ways that we can be more efficient, not only with the 
Commission's time, but again for the applicants, are there ways 
that we can work to enhance efficiencies, either through the 
regulatory or the legislative track? And I guess that's what I 
would hope for.
    And I think, Chairman Burns, you mentioned working with 
folks within DOE. Are we seeing greater communication back and 
forth so that everybody is working together? I want to know 
that we're not at odds with one another as we're trying to 
enhance these efforts.
    Mr. Burns. No, I don't think we're at odds. What we do, we 
have good communication with DOE. Obviously, we have the arm's 
length relationship because we have the regulatory 
responsibility, they have more of the research and development 
responsibility.
    But we, for example, in the advanced reactor areas, we held 
a workshop last May with DOE and invited people who are 
interested in potentially advanced designs to come to that. 
We're having another workshop co-sponsored with DOE this coming 
June. I meet with John Kotek about quarterly--you know, three 
to four times a year--on issues. We're looking for again in the 
advanced reactor area. They did some work, which we have under 
review with respect to how the general design criteria that 
have been largely used in light-water reactor applications, how 
do they line up with these non-light-water reactor designs that 
may be coming in?
    So I think we've got good communication, and we'll continue 
to work within our respective scope of responsibilities well 
together.
    Senator Murkowski. Mr. Chairman, my time has expired. So I 
thank you for the opportunity to ask these questions, but to 
each of you, know that this is something that I'm going to 
continue to press and inquire on because my observation--or at 
least the people that are coming to me are saying it's lengthy, 
it's costly, there must be some way that we can be a little 
more efficient there.
    But thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Murkowski.
    Mr. Chairman, have you requested sufficient funding in your 
budget to perform the review of the small modular reactor 
application when it comes?
    Mr. Burns. Yes, we have.
    Senator Alexander. And are the regulations in place that 
you need to have in place in order to review the design?
    Mr. Burns. Yes. We have the basic design certification 
framework. And as Commissioner Ostendorff discussed, we have 
this design--help me out here.
    Mr. Ostendorff. Design specific review standards.
    Mr. Burns. Thank you. Design specific review standards that 
will help and carry out the review.

                      CONSOLIDATED INTERIM STORAGE

    Senator Alexander. Let me switch to something that I know 
Senator Feinstein is interested in, and I believe Senator 
Murkowski, too, and that's the--you said you expected to 
receive one application for a private consolidated storage 
facility this year. Is there a possibility there might be more 
than one?
    Mr. Burns. Yes, there could be more than one. We expect 
from waste control specialists in western Texas sometime within 
the next 2 to 3 months, I believe, and then the Holtec or Eddy 
Lea Alliance, which is on the other side of the border in New 
Mexico, later this year, I don't have the exact timeframe and--
--
    Senator Alexander. Yes. And, of course, my view is that we 
ought to proceed on all these tracks at once. Senator 
Feinstein--I don't want to speak for her--she is not prepared 
to say the same thing on Yucca Mountain, but I don't--I think 
we ought to move on all the tracks at once if we want to do 
something about nuclear waste. How long would you expect the 
Commission's review of the application for a private storage 
facility to take?
    Mr. Burns. I would expect about a 3- to 4-year period. Now, 
that may--if there is a hearing requested and a hearing 
granted, there might be somewhat more time on that, but 
generally about a 3-year period.
    Senator Alexander. Do you have sufficient resources to 
review the application? Have you requested enough funding in 
the new budget to continue that review into next year?
    Mr. Burns. We have in the request specifically requested or 
have funds specifically provided for, for one--for at least one 
application. If we get the second application, we would look at 
reprioritizing some work and do it, but we would--we would----
    Senator Alexander. So the answer would be yes.
    Mr. Burns. Yes, we would go, yes, and continue forward with 
the review.
    Senator Alexander. Do you have all the legal authorities 
that you need to license a private consolidated storage 
facility?
    Mr. Burns. Yes. Yes, we do. And we have done--we have 
actually done this kind of review at an earlier time for a 
facility that did not go forward.

                       ADVANCED NUCLEAR REACTORS

    Senator Alexander. You mentioned advanced nuclear reactors. 
What kind of reactors do you consider to be advanced reactors? 
This is different than small modular reactors.
    Mr. Burns. Right. This would be different types of design, 
a high-temperature gas reactor, a pebble-bed reactor, and 
modernized forms of some reactors, a molten-salt reactor. There 
are different types of designs.
    Senator Alexander. And what kind of work are you doing on 
those types of designs?
    Mr. Burns. Well, we have some limited work that we're doing 
now. With the $5 million off fee proposal, we would continue 
work on regulatory infrastructure addressing some of these 
issues about readiness to handle those. There are some 
technical--I think some technical issues we would do, and then 
also engagement with the companies or entities who may be 
interested in it, and also continue an engagement 
internationally, for example, the Generation IV Forum, which is 
a group of countries, including the United States, that is 
interested in the potential advanced reactor design.
    Senator Alexander. I wonder if any of the other 
commissioners would have any comment about the role of advanced 
nuclear reactors in the future for our country.
    Mr. Ostendorff. I'll comment, Senator, because I had a 
chance just 2 weeks ago to be out in your State at Oak Ridge to 
talk at a conference on advanced reactor technology 
development. And there's a lot of interest out there. There 
were 21 different vendors that were represented at this 
conference for 2 days. As the chairman mentioned, there are 
technologies being discussed. There are non-light-water 
reactors, very different from our current reactor fleet, very 
different from small modular reactors. I heard one that was 
being discussed that was a lead-bismuth design. I never heard 
of that before, but in addition to pebble-bed and molten-salt, 
as the chairman mentioned.
    So there's a lot of interest in different technologies. I 
think most of these are very interesting, and some of them have 
promise, but I think at the end of the day, the vendors and the 
investors, especially the venture capital community, is trying 
to look at, Does this make economic sense? So I think the 
economic question is perhaps the biggest one rather than a 
technical question.
    Senator Alexander. Yes, Commissioner.
    Ms. Svinicki. Chairman Alexander, may I state or bring to 
the subcommittee's attention that although it is true that 
these advanced reactor types are very different than what we 
have in commercial generation now, the history of nuclear power 
development in the United States, is that actually many of 
these concepts are where we began as a country. If you visit 
Oak Ridge National Laboratory, Idaho National Laboratory, you 
find that we developed small scale prototypes of some of the 
sodium-cooled reactors.
    So it's a very interesting challenge to try to access some 
of that knowledge from 50, 60 years ago, and many of those 
leading experts have retired, but there is in the Department of 
Energy, and Atomic Energy Commission history a lot of relevant 
information, and in this country, we tried a lot of these 
things.
    Senator Alexander. That's very interesting.
    Commissioner Baran.
    Mr. Baran. I'll just briefly add, going back to the budget 
piece of this, I think the approach of funding advanced reactor 
activities separate from the fees licensees pay actually make a 
lot of sense here because I'd have a hard time justifying 
charging current plants for the work we're doing to get ready 
for future advanced reactor applications. I think having it 
separate from the fees is a fairer approach, but it makes sure 
that we have the funds we need to move forward on some of these 
regulatory and technical issues.
    Senator Alexander. Thank you. Thank you for that.
    Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    The chairman asked the questions, you know, how many people 
have died as a product of a nuclear accident, and it hasn't 
happened. That sort of really isn't my goal in this. My goal is 
I know what can happen, and the key is to prevent it from 
happening.

                      CRYSTAL RIVER NUCLEAR PLANT

    Let me ask you some questions about the Crystal River plant 
in Florida, which I gather operated for 36 years. We're talking 
about 80-year licenses now. And apparently the concrete began 
to separate in the dome, and that led to its shutdown. Could 
you tell me a little bit about that and what happened? Because 
if we're going to go for 80-year licenses, we ought to--and I 
just went into the faulty steam generators in San Onofre, and I 
suppose they could have, you know, patched them and kept 
operating, but they did the responsible thing and 
decommissioned it. And that--I've been there, and that site has 
been impeccably maintained by Southern California Edison, at 
least what somebody who is not a professional could see.
    So could you talk about, just a little bit about, what 
happened at Crystal River in Florida?
    Mr. Burns. Yes, I can. We can provide you maybe some--
probably more granular information than I probably have. But 
what--the issue of concrete degradation at Crystal River, as I 
understand it, was in part because of some of the evolution or 
operations they undertook there, which had an adverse impact on 
the concrete. And noting that, when we look at subsequent 
license renewal, and we look at the things that we are most 
concerned about, in terms of aging management, particularly 
when you talk about passive long-lived components, well, one of 
them is--one of the issues is for us, and that we do, do and 
have done research on, are doing research on, and will look at 
as part of the renewal review, is the question of long-term 
adequacy of concrete structures at a site. So that is certainly 
something we look at in terms of and is of concern to us, as 
is, for example, the integrity of the reactor pressure vessel, 
certain piping, certain cabling, on the long term.
    Senator Feinstein. Do you have people that know what to 
look for? And has the Commission seen the concrete degradation 
at Crystal River?
    Mr. Burns. I believe--I believe we have--yes, I believe our 
inspectors have looked at it and--because when I think it was 
discovered several years ago, my understanding is the licensee 
was considering whether or not it would restart the facility, 
whether it would do appropriate repair work, could do 
appropriate repair work, ultimately made a business decision to 
shut the facility down.
    Senator Feinstein. Yes.
    Mr. Burns. But it is something we certainly were aware of. 
They--when discovering those conditions, they would have had to 
report those conditions to us, and we would have seen it 
through our inspection program. So, yes, in that sense, very 
much so something we were aware of, became aware of.
    Senator Feinstein. Commissioner Ostendorff.
    Mr. Ostendorff. I just wanted to add one specific aspect to 
Crystal River. There was a maintenance error by the utility. 
Let's pretend that this water bottle is the containment, and 
pretend there's a rubber band around the circumference of this 
water bottle. The water bottle is being compressed by this 
rubber band. Now think that this is a containment made of 
concrete, and there's a cable, rather than a rubber band, 
around this bottle. Improper detensioning of that cable during 
maintenance is what caused the crack----
    Senator Feinstein. Is it improper----
    Mr. Ostendorff. Detensioning. There's this cable that was 
supposed to be----
    Senator Feinstein. Detensioning, which means loosening?
    Mr. Ostendorff. It means loosening.
    Senator Feinstein. Okay.
    Mr. Ostendorff. Take the rubber band off.
    Senator Feinstein. Right.
    Mr. Ostendorff. And so when that cable was detensioned 
improperly, you had irregular application of forces to the 
containment, and that was the root cause of why the concrete 
cracked.
    Senator Feinstein. Well, is that possible in other plants 
or is it isolated to Crystal River?
    Mr. Ostendorff. Well, I think the procedure itself could 
happen someplace else. I think that Duke Energy learned a very 
expensive lesson here in that maintenance error. I want to make 
sure it was maintenance error that caused the concrete to fail. 
We have a lot of people that do detailed reviews of concrete 
structures in nuclear power plants around the country. There's 
been a concern that the Seabrook plant in New Hampshire that we 
have spent a lot of time with industry and outside research 
groups to understand and are satisfied with the concrete 
structure at Seabrook. But there's a lot of attention paid to 
this particular area.
    Senator Feinstein. Well, that's good, but how was it 
brought to your attention about Crystal River?
    Mr. Ostendorff. Well, this was a pretty catastrophic 
failure. I think Commissioner Svinicki probably has been to the 
plant, and we've both been there. You see the cracks on the 
containment itself that occurred, you know, I don't know, like 
6 or 8 feet long, something like that, after the cable was 
taken off inappropriately.
    Senator Feinstein. Okay.
    Mr. Ostendorff. It was visually detected by the licensee 
and at the same time by our resident inspectors.

                     LESSONS LEARNED FROM FUKUSHIMA

    Senator Feinstein. Yes. If someone were to ask this 
question--and I'm about to--what were the lessons for NRC from 
Fukushima?
    Mr. Burns. Well, I'll start. I think our primary lesson, 
which actually reinforced a concept that we had adopted or 
pursued after the terrorist attacks in 2001, and that was being 
prepared for things that you don't expect to happen that may go 
beyond where the design is, and that is, for example, if you 
lose--what happens at Fukushima is they lose electric power 
that allows them to proceed with cooling of the reactors there.
    So the primary lesson, and where I think that the agency 
has had and that the industry had, is, How do you cope with 
those things if those worst case things and beyond your design 
basis things happen? So positioning additional diesel 
generators to provide power, pumps because you may have lost 
important pumps, cabling, electrical supply, positioning those 
things onsite, and what the industry has also done is it's 
established two----
    Senator Feinstein. I don't mean to interrupt you.
    Mr. Burns. Yes.
    Senator Feinstein. But does that mean a secondary system of 
redundancy?
    Mr. Burns. It's redundant equipment that can go in and be 
used to help with the recovery, for example, of electricity if 
you need electric power within the plant.
    Senator Feinstein. Well, why are they still pumping 
radioactive water into the ocean?
    Mr. Burns. Who----
    Senator Feinstein. At Fukushima.
    Mr. Burns. I don't know that they are pumping radioactive 
water----
    Senator Feinstein. I believe they are.
    Mr. Burns [continuing]. Into the ocean because the Japanese 
have been----
    Senator Feinstein. There is still some that apparently goes 
into the ocean. At least I read about that in a magazine.
    Mr. Burns. Yes. Yes. Well, the Japanese have been 
extraordinarily conservative about what they will allow to go 
into the ocean, in fact, to the point that some--that they 
have--they control water, they decontaminate the water of the 
very--sort of high-level radionuclides and leave--you basically 
have tritiated water, tritium----
    Senator Feinstein. Yes.
    Mr. Burns [continuing]. Water with tritium. So they've been 
extraordinarily--trying to be extraordinarily careful about 
that.
    Senator Feinstein. Well, what I was told, it's a no fishing 
zone, and so I asked, ``Why is it a no fishing zone?''
    Mr. Burns. Yes.
    Senator Feinstein. It's because of water going into the 
ocean that's contaminated. So----
    Mr. Burns. Yes. I am not particularly--I would have to say 
I am not particularly aware of what their current restriction 
is. Certainly, they had, after the accident, restrictions. I 
don't know what they are today.
    Senator Feinstein. I'll find out.
    Mr. Burns. But what I'm trying to help visualize is that 
before you get to that state is look--thinking about ways of if 
you've lost certain systems in the plant, restore them to the 
point that you can get the safe shutdown so you don't have the 
melted reactor core, that you provide--that you mitigate the 
consequences of the accident and prevent releases to the extent 
you can.
    Senator Feinstein. Commissioner.

                      CRYSTAL RIVER NUCLEAR PLANT

    Mr. Ostendorff. Senator, I would like to provide a 
clarification to my response on Crystal River. I should have 
told you a significant fact. At the time this containment 
cracking occurred in the concrete, the reactor was fully shut 
down and cooled down. It was in a maintenance period. I did not 
tell you that. I apologize.
    Senator Feinstein. Thank you. That's helpful. Thank you.
    Senator Alexander. Mr. Chairman, isn't the--isn't----
    Are you ready for me to----
    Senator Feinstein. I'm finished.

                     LESSONS LEARNED FROM FUKUSHIMA

    Senator Alexander. Mr. Chairman, isn't the answer to 
Senator Feinstein's question that the lesson from Fukushima is 
that you need to make sure you have water to cool the reactors 
or the spent fuel rods?
    Mr. Burns. Yes. I would say you need--one thing that you 
need, you need electricity because----
    Senator Alexander. Well, no, no. In the answer, you needed 
water.
    Senator Feinstein. Yes, I----
    Mr. Burns. You need a cooling water----
    Senator Alexander. I'm not asking you how you get the 
water----
    Mr. Burns. Okay.
    Senator Alexander [continuing]. I'm saying in the problem, 
you didn't have water to cool the rods or the reactors.
    Senator Feinstein. Sufficient.
    Senator Alexander. Isn't that right?
    Mr. Burns. Yes. Yes. Yes.
    Senator Alexander. Right. And then you can go into a whole 
bunch of explanation about how you have redundant ways to do 
that, but it was a fairly simple problem, if I'm correct. You 
didn't have water to cool rods that were in the reactor or that 
were used fuel.
    Mr. Burns. And most--I would say the primary reason for 
that is the tsunami knocked out the diesel generators.
    Senator Alexander. Yes, but if you're analyzing the 
problem, the problem was you needed water.
    Mr. Burns. Correct.
    Senator Alexander. Right. And the response has been, if I'm 
not mistaken, that you've begun a process throughout our 
reactors in the United States to create redundant ways to 
provide water in case of unanticipated problems so that that 
doesn't happen here.
    Mr. Burns. Correct. You're trying to get to safe shutdown, 
and that's what those redundant systems will help you do. 
That's what we're looking at.
    Senator Alexander. Right. But basically so that it's not 
held out to be some big scientific mystery----
    Mr. Burns. No.
    Senator Alexander [continuing]. You just need to make sure 
water is there to cool the--to cool the--now, tell me if I'm 
wrong about that, but I think that in the end is the problem, 
that the water is available for the rods and the reactor and/or 
in spent fuel.
    Mr. Burns. That's correct. So you achieve then a safe 
shutdown and equilibrium.
    Senator Alexander. I mean, walking around Watts Bar, which 
is just about to begin to produce electricity in our region, 
you know, I saw--and I think that was the first of the new 
plants that had newly redundant--or one of the first, maybe the 
first--that newly redundant facilities to try to take into 
account Fukushima. Is that correct, as you came out of your 
review of the Fukushima disaster and what we do about it here?
    Mr. Burns. Yes. I think that's correct. They were one of 
the first with this flex equipment.
    Senator Alexander. And they made a decision, I think, to go 
in an accelerated way basically to do almost anything that was 
suggested that might avoid that sort of problem. That was the 
sense I got.
    Mr. Burns. Yes. They--yes, certainly, I--and I think 
probably given where they were in terms of licensing and coming 
on as a new plant, they wanted to get that done, and also it 
helps in terms of Unit 1 needs--needed support as well.

                        YUCCA MOUNTAIN LICENSING

    Senator Alexander. Right. Let me just ask you some 
questions about Yucca Mountain, which shouldn't take long to 
answer.
    Is the Commission following the court's order?
    Mr. Burns. Yes, we are.
    Senator Alexander. The next step in the licensing process 
is to complete the Supplemental Environmental Impact Statement. 
How much will that cost?
    Mr. Burns. I believe that the remaining--I think that costs 
about $3 million.
    Senator Alexander. I've got $1.1 million. Would that be 
right?
    Mr. Burns. Okay. That was probably accurate.
    Senator Alexander. Do you have $1.1 million to do that?
    Mr. Burns. Yes. And we expect to issue it by mid-year.
    Senator Alexander. By mid-year of this year.
    Mr. Burns. This year. This year.
    Senator Alexander. Thank you. Would you agree the next step 
of the licensing process is to restart the hearings before the 
Atomic Safety and Licensing Board?
    Mr. Burns. Yes. A next step would be the hearing process.
    Senator Alexander. I believe that you testified last year 
that--that--well, it would take an additional $330 million to 
obtain the construction authorization for Yucca Mountain. Does 
that sound correct?
    Mr. Burns. Yes. That's the estimate we've had.
    Senator Alexander. Do you have the $330 million to do that?
    Mr. Burns. No, that would have to be appropriated.
    Senator Alexander. Mm-hmm. Why was that not in the 
President's--in the budget request?
    Mr. Burns. This is the administration's budget. The 
administration did not provide for additional funds on Yucca 
Mountain.
    Senator Alexander. Yes. Well, we--you know, I think it's 
fair to characterize--and she will correct me if I'm wrong--we 
are united on the urgent desire to break the nuclear waste 
stalemate; we're not on what to do about Yucca Mountain. For 
me, it seems to me plain that it's the law, that the court has 
ordered moving ahead. Your own environmental scientists have 
said that it's safe for 1 million years. We get frequent 
lectures about the importance of following science, and 
following the law and following science, we would then have a 
place to put a great deal of the spent nuclear fuel we have at 
sites all around the country, and we could also get agreement 
with the House of Representatives to move ahead with our short-
term repositories in our private facilities.
    So we will keep working on our part. That's not necessarily 
your problem. But you're going to be continuing to hear from me 
that I think that you should follow the law and follow the 
science and move ahead with Yucca Mountain. Senator Feinstein, 
I don't have any other questions.
    Senator Feinstein. I have--I would like to.
    Senator Alexander. You're welcome to ask anything you would 
like.

                               FUKUSHIMA

    Senator Feinstein. If I may, Mr. Chairman, I would like to 
put in the record a February 10 ``Washington Post'' article, 
``How Is Fukushima's Clean-Up Going 5 Years After Its Meltdown? 
Not So Well.'' And my staff has prepared a couple of brief 
papers on Fukushima clean-up, that radioactive water remains a 
big problem at Fukushima. Initially water used to cool the 
reactor cores was stored in huge tanks, but they have leaked 
and continue to do so. There are about 1,000 tanks on the site 
holding 750,000 tons of water. And that goes on.
    A second one on the NRC has required two types of actions 
following the Fukushima disaster.
    And a third one on the number of fish with excessive levels 
of radiation have been significantly reduced.
    So I would ask that those documents be entered into the 
record, if I might.
    Senator Alexander. They will be.
    [The link for ``Washington Post'' article follows:]

    https://www.washingtonpost.com/world/asia_pacific/five-years-after-
nuclear-meltdown-no-one-knows-what-to-do-with-fukushima/2016/02/10/
a9682194-c9dc-11e5-b9ab-26591104bb19_story.html?utm_term=.c73d78c27db8.

    Senator Feinstein. Thank you very much, Mr. Chairman.
    Senator Alexander. Any other questions or comments?
    Senator Feinstein. No, I think I'm fine.
    And let me thank you all for your service. I think it's a 
very serious thing because we all look at things, and unless 
something has happened, you know, it's hard to believe that 
it's going to happen on a major basis. And maybe because I live 
in a State where everywhere is 5 miles from an earthquake 
fault, I know it can happen. And so that kind of changes your 
view of things, because it's on your watch, and if you know 
something can happen, you have an obligation to do something 
about it.
    Someday I'll tell the chairman a story of how I learned 
that when I was mayor of San Francisco.
    Senator Alexander. I think you've already told me.
    Senator Feinstein. I've already told you, but I really----
    Senator Alexander. And you did the right thing about the 
baseball stadium; right?
    Senator Feinstein. That's right.
    Senator Alexander. No, no. She is making very good points, 
and I know that it's points that each of you agrees with 
because that's what you do every day. And I would also join 
Senator Feinstein in thanking you for your service.
    Commissioner Ostendorff, thank you for your term of 
service.
    Senator Feinstein. Yes.
    Senator Alexander. But thanks to every one of you and to 
your technical staff, some of whom are here. I've been to the 
reactors with you and I've seen the technical staff and how it 
operates and the rigor of it, which is pretty obvious, even to 
a layman. And I think it's a pretty remarkable record that we 
have in the United States. It's not--of course, a reactor, if 
there is a problem, could cause severe damage to property and 
to people. Fortunately, that hasn't happened to us in the 
United States, either in the military or in our commercial 
reactors, and that's because you're accountable and you've made 
the operators accountable, and we have a very strict safety 
protocol.
    So as long as we are a country that uses 25 percent of all 
the electricity of the world, more or less, and as long as one 
of our major national priorities, at least a majority of the 
people, is to do what we can to reduce the human effect on 
climate change, and as long as 100 nuclear reactors produce 60 
percent of our carbon-free electricity at a pretty low cost, 
and it's reliable as well, I think we ought to do all we can to 
create an environment in which we can continue to operate 
nuclear reactors safely.
    So we'll look forward to working with you on the budget. I 
think you actually have an exciting period of time coming up as 
these different forms of reactors--small, advanced, whatever 
they may turn out to be--come along, and we look forward to 
working with you on them.
    I also want to thank you for being responsive to our staff 
on both sides of the aisle.
    Senator Feinstein. Yes.
    Senator Alexander. That's very important, when we ask 
questions, we get answers, and I think so far we're doing--we 
feel pretty good about that, and we thank you for that.
    Senator Feinstein, I think, unless you have further 
comments, that concludes the hearing.
    Senator Feinstein. No. Well done, Mr. Chairman.
    And let me just, too, say thank you. I mean, this is a very 
big deal, what you do, so I for one am very, very grateful. 
Thank you.
    Mr. Burns. Thank you.

                          SUBCOMMITTEE RECESS

    Senator Alexander. It's adjourned.
    [Whereupon, at 3:52 p.m., Wednesday, February 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
